Nos. 19-251, 19-255
IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
v.

Petitioner,

XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
THOMAS MORE LAW CENTER,
v.

Petitioner,

XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
ON WRITS OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRIEF OF AMICI CURIAE HISPANIC LEADERSHIP FUND,
NATIONAL ASSOCIATION OF HOME BUILDERS, AND
NATIONAL FEDERATION OF INDEPENDENT BUSINESS
IN SUPPORT OF PETITIONERS

JEFFREY M. HARRIS
Counsel of Record
WILLIAM S. CONSOVOY
TIFFANY H. BATES
CONSOVOY MCCARTHY PLLC
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
(703) 243-9423
jeff@consovoymccarthy.com
March 1, 2021

Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES ...................................... iii
STATEMENT OF INTEREST ....................................1
INTRODUCTION AND SUMMARY OF
ARGUMENT ................................................................3
ARGUMENT ................................................................5
I.

II.

The Court should apply heightened
scrutiny and enjoin California’s attempts
to compel the blanket disclosure of highly
sensitive donor information..............................5
A.

Heightened scrutiny must apply to
requirements that nonprofit groups
disclose their members or donors ............5

B.

California’s blanket donor disclosure
policy fails any level of constitutional
scrutiny..................................................11

Any interest in securing nonprofit
member or donor information must be
weighed
against
the
substantial
likelihood that this highly sensitive
information will not be kept confidential ......14
A.

Data breaches, accidental disclosures,
and leaks of sensitive information
occur regularly at all levels of
government ............................................17

ii
B.

Countless individuals have faced
harassment, threats, and loss of
business opportunities after being
“doxed” for engaging in core
political speech .....................................23

C.

Nonprofit organizations’ donor
and membership information is
also highly commercially sensitive ......26

CONCLUSION ..........................................................28

iii
TABLE OF AUTHORITIES
CASES
Bates v. City of Little Rock,
361 U.S. 516 (1960) .................................................. 9
Davis v. FEC,
554 U.S. 724 (2008) ............................................... 12
Gibson v. Florida Legislative Investigation
Commission, 372 U.S. 539 (1963).................... 10, 11
Hispanic Leadership Fund v. Walsh,
2013 WL 5423855 (N.D.N.Y. 2013) ........................ 1
McIntyre v. Ohio Elections Comm’n,
514 U.S. 334 (1995) ............................. 11, 12, 13, 14
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958) ....................................... passim
Nat’l Org. for Marriage, Inc. v. United States,
24 F. Supp. 3d (E.D. VA. 2014) ............................. 18
Shelton v. Tucker,
364 U.S. 479 (1960) ................................................ 10
Sweezy v. New Hampshire,
354 U.S. 234 (1957) .................................................. 9
Talley v. California,
362 U.S. 60 (1960) .............................................. 9, 10
OTHER AUTHORITIES
3-Year Jail Term for VA Employee Who Stole
Patient Data, HIPPA Journal (Jun. 18, 2018),
bit.ly/2ktIkkz ......................................................... 20
AARP, Charity Scams, bit.ly/2Mh4Hro .................... 12

iv
Anita L. Allen, Associational Privacy and the
First Amendment: NAACP v. Alabama,
Privacy and Data Protection, 1 Ala. C.R. &
C.L. L. Rev. 1 (2011)...................................... 6, 7, 14
Announcement from the Missouri Department of
Health and Senior Services, Missouri Dep’t of
Health & Senior Servs. (Oct. 26, 2018),
bit.ly/2m8bXbv ...................................................... 20
Hillary Borrud, Oregon Tax Agency Employee
Copied Personal Data of 36,000 People, The
Oregonian (Mar. 23, 2018), bit.ly/2kZ7Xdd.... 19, 20
California Department of Insurance
Vulnerability Potentially Exposed Thousands
of SSN and Other Personal Information,
DataBreaches.net (Jan. 5, 2019),
bit.ly/2ksfJw0 ........................................................ 19
Confidential Louisiana Department of Children
and Family Services Documents Found
Blowing in the Street; Office Manager and
Area Director Suspended, DataBreaches.net
(Aug. 22, 2011), bit.ly/2NC2YgP ........................... 21
Dale Denwalt, Oklahoma DHS Could Have Sent
Private Medical Info to Wrong Addresses, The
Oklahoman (Oct. 2, 2018), bit.ly/2kWrUS3 ......... 22
FBI, Charity and Disaster Fraud,
bit.ly/37GCHVI ...................................................... 12
Josh Gerstein, Ex-Hassan Aide Sentenced to
4 Years for Doxing Senators, Politico
(June 19, 2019), politi.co/3uilqvN ......................... 24

v
GoBankingRates, California Doesn't Know
What it Did with 800,000 Child Support
Records, Business Insider (Apr. 3, 2012),
bit.ly/3bHwKsT ............................................... 21, 22
Kirsten Grind & Keach Hagey, Why Did Facebook
Fire a Top Executive? Hint: It Had Something
to Do with Trump, Wall St. J. (Nov. 11, 2018),
on.wsj.com/2NJChGM ........................................... 25
Rachel Kurzius, Why Do These Activists
Publish People’s Addresses but Fear the
Same Treatment?,Wash. Post (Jan. 9, 2019),
wapo.st/3dtWwDi ............................................ 23, 24
Ely R. Levy, Nonprofit Fundraising and
Consumer Protection: A Donor’s Right to
Privacy, 15 Stan. L. & Pol’y Rev. 519
(2004) ............................................................... 26, 27
Rheana Murray, Moms Boycott Popular Baby
Sleep Expert for Donating to Trump, Today
(Jan. 21, 2021), on.today.com/2OM88am ............. 25
NAACP, History: Nation’s Premier Civil Rights
Organization, bit.ly/3qyGzQ1 ................................. 6
Mark Niesse & Arielle Kass, Check-in Computers
Stolen in Atlanta Hold Statewide Voter Data,
Atlanta News Now (Sep. 17, 2019),
bit.ly/2m0Exfc........................................................ 21
Peter Reilly, National Organization for Marriage
Denied Attorney Fees in IRS Lawsuit, Forbes
(Dec. 9, 2015), bit.ly/3qVgF9c ............................... 18

vi
Jon Street, Incoming Texas Freshmen
Threatened with Doxing if They Join
Conservative Campus Groups,
Campus Reform (June 21, 2019),
bit.ly/3k7NPjy.................................................. 24, 25
Adrejia L.A. Boutté Swafford, Cyber Risk
Insurance: Law Firms Need It, Too,
67 La. B.J. 326 (2020) ........................................... 17
Richard Alonso Zaldivar, Hackers Breach
HealthCare.gov System, Get Data on
75,000, Associated Press (Oct. 19, 2018),
bit.ly/2m0DsEa ...................................................... 18

1
STATEMENT OF INTEREST 1
Hispanic Leadership Fund (HLF). HLF is a
not-for-profit 501(c)(4) social-welfare organization.
HLF is dedicated to strengthening working families by
promoting common-sense public policy solutions
promoting liberty, opportunity, and prosperity, with a
particular interest in issues affecting the Hispanic
community. HLF has previously participated in
federal cases in challenges to state laws that
unconstitutionally restrict nonprofit organizations’
speech and expression. See, e.g., Hispanic Leadership
Fund v. Walsh, 2013 WL 5423855 (N.D.N.Y. 2013).
National Association of Homebuilders
(NAHB). NAHB is a Washington, D.C.-based trade
association whose mission is to enhance the climate
for housing and the building industry. Founded in
1942, NAHB is a federation of more than 700 state and
local associations. About one-third of NAHB’s
approximately 140,000 members are home builders or
remodelers; its builder members construct about 80%
of all new homes built in the United States. Chief
among NAHB’s goals are providing and expanding
opportunities for all people to have safe, decent, and
affordable housing. The remaining members are
associates working in closely related fields within the
housing industry, such as mortgage finance and
Pursuant to this Court’s Rule 37.6, counsel for amici curiae
certifies that this brief was not authored in whole or in part by
counsel for any party and that no person or entity other than
amici curiae or their counsel have made a monetary contribution
to the preparation or submission of this brief. The parties have
consented to the filing of this brief.
1

2
building products and services. NAHB frequently
participates as a party litigant and amicus curiae to
safeguard the constitutional and statutory rights and
economic interests of its members and those similarly
situated.
National
Federation
of
Independent
Business (NFIB). NFIB is the nation’s leading small
business association, representing members in
Washington, D.C. and all 50 state capitals. Founded
in 1943 as a nonprofit, nonpartisan organization,
NFIB’s mission is to promote and protect the rights of
its members to own, operate, and grow their
businesses. To protect its members’ interests, NFIB
frequently files amicus curiae briefs in cases that
threaten to harm small businesses.
Amici have a significant interest in this case
because, as nonprofit organizations dedicated to
public policy principles, they have serious concerns
about the California Attorney General’s de facto
requirement that nonprofit groups make blanket
disclosures of politically and commercially sensitive
donor information. This sweeping disclosure demand
is especially troubling because, over and over, states
have been unable or unwilling to keep nonprofit donor
information confidential, thereby exposing the donors
and members to harassment and economic reprisals,
which ultimately discourages them from associating
with and supporting nonprofits. The importance of
this case to the nonprofit community simply cannot be
overstated. The Court should reverse the Ninth
Circuit and make clear that the First Amendment
continues to protect the right to confidentiality for

3
members and donors to nonprofit social-welfare
organizations.
INTRODUCTION AND
SUMMARY OF ARGUMENT
Petitioners Americans for Prosperity Foundation
(AFP) and Thomas More Law Center (Thomas More)
have thoroughly explained why compelled blanket
disclosure of a nonprofit organization’s donors violates
the First Amendment. Amici write to emphasize and
amplify two of the reasons why this Court should
reverse the decision below.
First, the Ninth Circuit flatly contradicted
NAACP v. Alabama ex rel. Patterson, 357 U.S. 449
(1958) and its progeny in applying lesser scrutiny to
California’s sweeping disclosure requirement. There
are important reasons why heightened scrutiny
applies to compelled disclosure of nonprofit donors and
membership. By revealing supporters of nonprofits—
and thereby exposing them to harassment and
economic retribution by those individuals and groups
who are opposed to their missions—blanket disclosure
rules like California’s threaten to stifle core speech
and association protected by the First Amendment.
This Court has consistently held that there is no basis
for imposing such costs on social welfare organizations
unless the government is able to overcome heightened
scrutiny.
Under any level of scrutiny, however, there is a
fundamental mismatch between California’s blanket
disclosure rules and any government interest in
preventing fraud by nonprofit groups. As the FBI and
many other groups have recognized, the classic type of

4
fraud by a nonprofit or charity is when a group raises
funds from the public under false pretenses about how
the money will be spent, and then diverts the funds to
other purposes—or into the pockets of those who run
the charity. But compelling upfront disclosure of a list
of large donors would do exactly nothing to help law
enforcement identify charities engaged in such fraud.
It is thus unsurprising that, as the district court
found, California has virtually never used this donor
information in conducting investigations of charities.
Second, if allowed to stand, the Ninth Circuit’s
decision upholding California’s policy would provide a
model by which other states will inevitably force
similar disclosures of donor and member information
of nonprofit associations. This is especially troubling
because many documented cases, discussed below,
show that this private information is not going to
remain confidential. The temptation for state officials
to leak this information is especially great when the
nonprofit and the state or local officials are on opposite
sides of ideological or public policy issues. Data
breaches and accidental disclosures, as well as
intentional abuse—like doxing—pose great threats to
associations and their members and donors for simply
engaging in protected political speech.
But member and donor lists are not only sensitive
for speech and advocacy purposes—they are also
highly sensitive for business and competitive
purposes. Associations work tirelessly to cultivate and
develop relationships with members and donors, and
disclosure of those lists allows other competing
organizations to target and solicit members and
donors. California’s misguided policy thus not only

5
threatens to chill nonprofits’ speech and advocacy but
also unveil commercially sensitive information that is
kept confidential for important business reasons. The
Ninth Circuit’s decision flouts basic principles of the
First Amendment, threatens to chill core speech and
association, and causes significant harm to nonprofits’
missions. The decision below should be reversed.
ARGUMENT
I.

The Court should apply heightened
scrutiny and enjoin California’s attempts
to compel the blanket disclosure of highly
sensitive donor information.
A. Heightened scrutiny must apply to
requirements that nonprofit groups
disclose their members or donors.

Compelled disclosure of nonprofits’ donor or
membership information must be subject to a
heightened standard of review. History has shown
time and again that such disclosures may subject
donors or members to harassment, intimidation, or
economic
retribution—especially
when
the
organization engages in advocacy that is seen as
controversial or is contrary to the policy preferences of
state officials. That is why this Court, since NAACP v.
Alabama, has held that disclosure regimes like the one
at issue in this litigation must meet heightened
scrutiny. The First Amendment concerns that led to
that landmark ruling continue to hold true today and
“the full protection of NAACP v. Alabama [is]
warranted in this case.” Thomas More App. 125a
(Ikuta, J., dissenting from denial of rehearing en
banc).

6
The NAACP was established in the early 20th
century as a private-membership nonprofit, with its
original mission to advance racial justice for African
Americans through activities coordinated from a
central office with affiliates across the country. Anita
L. Allen, Associational Privacy and the First
Amendment: NAACP v. Alabama, Privacy and Data
Protection, 1 Ala. C.R. & C.L. L. Rev. 1, 3-4 (2011).
Today, the NAACP is thriving, with more than 2,000
branches and 500,000 members across the nation. See
NAACP, History: Nation’s Premier Civil Rights
Organization, bit.ly/3qyGzQ1.
The NAACP’s early history, however, was fraught
with physical attacks, threats, and intimidation by
critics of the nonprofit’s outspoken condemnation of
racist laws and policies. See Allen, supra at 4 n.28.
This was especially true in the 1950s, as at that time,
“the public associated the NAACP with bold, even
radical, efforts to force an end to legal segregation”
both before and after this Court’s decision in Brown v.
Board of Education. See id. at 5. Because there was
public resistance to integration, there was resistance
to the NAACP. See id.
Public resistance to integration and the NAACP
itself made Alabama desperate to drive the
organization from the state. See id. The NAACP’s
mission to eliminate racial discrimination was a
threat to the state’s desire to maintain racial
segregation. Accordingly, Alabama devised a strategy
to expel it by relying on the state’s foreign corporation
qualification law, which required out-of-state
corporations to register before transacting business in
the state. See id. In 1956, Alabama accused the

7
NAACP, which had been organized in New York, of
failing to register as a foreign corporation. See
NAACP, 357 U.S. at 451. According to Alabama, the
NAACP was operating in the state by, among other
things, opening a regional office, organizing chapters,
recruiting members, soliciting contributions, and
providing both financial support and legal aid to
African American students attempting to gain
admission to the then all-white University of
Alabama. See id.; see also Allen, supra at 5-6.
Although many of Alabama’s allegations proved to
be untrue, the NAACP had failed to comply with the
state’s foreign corporation qualification law. See id.
Based on this violation, the Alabama Attorney
General secured a court order enjoining the NAACP
from operating within the state. See id. And, despite
the NAACP’s extraordinary efforts to come into
compliance, including tendering all information
needed to register, Alabama refused to back down.
Instead, it filed a motion seeking the names and
addresses of the NAACP’s members and agents. See
id. The state court granted the motion, forcing the
NAACP to either disclose its members or face
contempt and a hefty fine.
This Court unanimously overturned that order.
Specifically, it held that the NAACP had a right to
keep the identity of its members confidential,
regardless of whether a state business law had been
broken. As the Court explained, forcing the NAACP to
disclose its membership to state officials:
is likely to affect adversely the ability of
[the NAACP] and its members to pursue
their collective effort to foster beliefs

8
which they admittedly have the right to
advocate, in that it may induce members
to withdraw from the Association and
dissuade others from joining it because of
fear of exposure of their beliefs shown
through their associations and of the
consequences of this exposure.
NAACP, 357 U.S. at 462-63.
This Court’s assessment of those risks was
unquestionably correct. Given the history of violence
facing NAACP members, release of their names and
addresses would deter—if not outright prevent—
individuals from joining or continuing to affiliate with
the organization. See id. at 461-62. Indeed, “on past
occasions revelation of the identity of its rank-and-file
members . . . exposed these members to economic
reprisal, loss of employment, threat of physical
coercion, and other manifestations of public hostility.”
Id. at 462.
At bottom, this Court held that Alabama’s efforts
to probe into the NAACP’s membership implicated
concerns at the very core of the First Amendment, as
“freedom to engage in association for the advancement
of beliefs and ideas is an inseparable aspect of the
‘liberty’ assured by the Due Process Clause of the
Fourteenth Amendment, which embraces freedom of
speech.” Id. at 460. Because demands for an advocacy
organization’s membership lists are “substantial
restraint[s on] freedom of association,” id. at 462, they
are “subject to the closest scrutiny,” id. at 461. Courts
must accordingly enjoin such demands unless the
state can show a “controlling justification” for
disclosure, id. at 466, i.e., a “compelling” interest. Id.

9
at 463 (quoting Sweezy v. New Hampshire, 354 U.S.
234, 265 (1957) (Frankfurter, J., concurring)).
This Court has never deviated from that
understanding of the First Amendment’s protections
for advocacy organizations. In Bates v. City of Little
Rock, ordinances in two Alabama municipalities
required all organizations operating within their
borders to supply the city clerk with the names of the
groups’ members and contributors. See 361 U.S. 516,
516-19 (1960). Two local branches of the NAACP
refused to comply since it “might lead to their
harassment, economic reprisals, and even bodily
harm.” Id. at 520. NAACP officials successfully
appealed their conviction and fines. As the Court
explained, “public identification of persons in the
community as members of the organizations had been
followed by harassment and threats of bodily harm,”
and moreover, “fear of community hostility and
economic reprisals that would follow public disclosure
of the membership lists had discouraged new
members from joining the organizations and induced
former members to withdraw.” Id. at 524. Having
failed to adequately justify its regulation beyond its
interest in occupation taxation, the ordinances
constituted an unconstitutional restraint on the
freedom of association. Id. at 527.
In Talley v. California, a Los Angeles ordinance
restricted the distribution of any handbill that did not
include the name and address of the person(s) who
printed, manufactured, and/or distributed it. See 362
U.S. 60, 60 (1960). The handbills urged readers to
boycott certain businesses that allegedly did not offer
equal employment to minorities. See id. at 61. Just

10
like the Attorney General’s purported interest here in
preventing “fraud,” Los Angeles attempted to justify
its ordinance as “providing a way to identify those
responsible for fraud, false advertising and libel.” Id.
at 64. But the ordinance was “in no manner so
limited,” there was no indication of legislative support
for that justification, and “fear of reprisal might deter
perfectly peaceful discussions of public matters of
importance.” Id. at 65-66; see also id. at 66-67 (Harlan,
J., concurring). Accordingly, the Court held that the
ordinance violated the First Amendment.
In Shelton v. Tucker, an Arkansas statute
compelled every teacher, as a condition of employment
in any state-supported school or college, to file annual
affidavits listing every organization to which they had
belonged or regularly contributed to within the past
five years. See 364 U.S. 479, 480 (1960). Given the
disclosure law’s unlimited scope, in that it required
every teacher to disclose every affiliation, the Court
held that it was not sufficiently tailored to the state’s
interest. See id. at 488. This Court held that “even
though the governmental purpose be legitimate and
substantial, that purpose cannot be pursued by means
that broadly stifle fundamental personal liberties
when the end can be more narrowly achieved.” Id.
Narrow tailoring was vital, the Court explained,
because exposing teachers’ associations could threaten
their employment due to ideologically opposed
superiors and the “public pressures upon school
boards to discharge teachers who belong to unpopular
or minority organizations. . . .” Id. at 486-87.
Finally, in Gibson v. Florida Legislative
Investigation Commission, the president of the Miami

11
branch of the NAACP was ordered to appear before a
committee of the Florida State Legislature that was
investigating infiltration of Communists into
organizations operating in the field of race relations
and to disclose membership records. See 372 U.S. 539,
540-41 (1963). This Court held that Florida had to
prove that the investigation into the membership lists
of the NAACP was likely to help identify subversives
associated with the Communist Party. Id. at 548.
There, too, the Court held that “an adequate
foundation for inquiry must be laid before proceeding
in such a manner as will substantially intrude upon
and severely curtail or inhibit . . . protected
associational rights.” Id. at 557 (emphasis added).
Having failed to prove a “substantial connection”
between its broader investigative goals and the
specific investigation of the NAACP, Florida plainly
lacked such a foundation. See id.
B. California’s blanket donor disclosure
policy fails any level of constitutional
scrutiny
California has similarly failed to provide a
compelling, or even reasonable, justification for
mandating blanket disclosure of nonprofit groups’
largest donors. The district court expressly found that
“the state did not really need [the donor] information
to accomplish its goals.” Thomas More App. 109a
(Ikuta, J., dissenting from denial of rehearing en
banc). That is especially true when it comes to
California’s assertion that it needs donor information
to weed out charities engaged in fraud. It is, of course,
true that the “right to remain anonymous may be
abused when it shields fraudulent conduct.” McIntyre

12
v. Ohio Elections Comm’n, 514 U.S. 334, 357 (1995).
But it is equally true that “in general, our society
accords greater weight to the value of free speech than
to the dangers of its misuse.” Id.
Regardless of the standard of scrutiny, there must
always be a “relevant correlation or substantial
relation” between the state’s “interest and the
information required to be disclosed.” Davis v. FEC,
554 U.S. 724, 744 (2008) (citations omitted). Even
assuming California has a legitimate interest in
preventing fraud by charitable organizations, there
remains a fundamental disconnect between that
interest and the donor-disclosure policy at issue here.
The paradigmatic type of charitable fraud involves
situations in which a charity raises funds from the
public by making false statements about how it plans
to spend that money. Instead of using the money to
support the ostensible charitable cause, the fraudsters
then funnel the money to themselves or their family
members or associates. The FBI, for example, warns
the public about charity fraud schemes that “seek
donations for organizations that do little or no work”
where “the money goes to the fake charity’s creator.”
FBI, Charity and Disaster Fraud, bit.ly/37GCHVI.
The AARP similarly warns about “scammers” who
“capitalize on donors’ goodwill to line their pockets.”
AARP, Charity Scams, bit.ly/2Mh4Hro.
California’s donor-disclosure rule will do exactly
nothing to prevent these common types of charitable
fraud. The state “may, and does, punish fraud directly.
But it cannot seek to punish fraud indirectly by
indiscriminately” demanding that nonprofits turn
over their member and donor lists “with no necessary

13
relationship to the danger sought to be prevented.”
McIntyre, 514 U.S. at 357. Indeed, “[o]ne would be
hard pressed to think of a better example of the pitfalls
of [California’s] blunderbuss approach than the facts
of the case before us.” Id.
Here, it is difficult to imagine even a hypothetical
scenario in which fraud that would have otherwise
gone undetected would have been caught by state
officials by reviewing a list of donors. And the list of
donors, of course, provides zero information that
would help identify common fraudulent schemes such
as fundraising under false pretenses or diverting
funds from charitable purposes to personal use.
Given the profound disconnect between donor lists
and the detection of fraud, it is unsurprising that the
donor information is essentially useless to any
legitimate law enforcement functions. California’s
officials have never used the donor disclosure
information to initiate a fraud investigation. See
Thomas More Br. 36. Indeed, California officials have
candidly admitted that the blanket disclosure policy is
not aimed at targeting or investigating fraud. See AFP
Br. 36-37. At trial, the state’s investigative attorneys
could not identify a single time they had used a
Schedule B in the last year in order to conduct an
investigation. Id. Not only does the disclosure policy
fail to relate substantially to California’s interest in
detecting fraud, but it fails to relate to that alleged
interest at all.
NAACP v. Alabama and its progeny make clear
that whatever authority state and local governments
have to demand information from nonprofits doing
business in their respective jurisdictions, they may not

14
demand disclosure of member and donor information
without meeting heightened First Amendment
scrutiny. “Individuals who join forces with others”
should thus be able “to sleep comfortably knowing
they have a constitutional right to privacy that
minimizes the risk of stigma or reprisal flowing from
group membership.” Allen, supra at 3. “Any peaceful
religious, social, or political organization with a
sensitive or unpopular mission,” in turn, should be
able to promise “meaningful confidentiality and
anonymity” to its members and donors. Id. After all,
“[a]nonymity is a shield from the tyranny of the
majority.” McIntyre, 514 U.S. at 357. Indeed, it
“exemplifies” the very “purpose behind the Bill of
Rights, and of the First Amendment in particular: to
protect unpopular individuals from retaliation—and
their ideas from suppression—at the hand of an
intolerant society.” Id. The Court should reverse the
decision below to ensure that nonprofit groups are not
forced to make blanket disclosures of their highly
sensitive donor information to state officials who may
be hostile to their goals and ideologically opposed to
their missions.
II.

Any interest in securing nonprofit
member or donor information must be
weighed against the substantial likelihood
that this highly sensitive information will
not be kept confidential.

The Ninth Circuit upheld California’s donor
disclosure requirement because, among other reasons,
there is not “a reasonable probability that the
plaintiffs’ Schedule B information will become public
as a result of disclosure to the Attorney General.” AFP

15
App. 34a; Thomas More App. 37a-38a. As Judge Ikuta
explained in her dissent from denial of rehearing en
banc, however, that conclusion “is contrary to any
real-world experience.” AFP App. 93a; Thomas More
App. 124a. Indeed, the Court need not look beyond the
facts of this case to see just how easily sensitive
information can end up in the public domain
notwithstanding state officials’ promises to keep it
confidential.
The undisputed record in this case shows that the
Attorney General’s office was aware of at least 25 to
30 unredacted Schedule Bs—the part of the IRS Form
990 that contains contributor names, addresses, and
donation amounts—that were published on
California’s Registry of Charitable Trusts website. See
AFP Pet. 8. For example, Planned Parenthood was
forced to complain to the Attorney General about this
disclosure of “all the names and addresses of hundreds
of [its] donors.” AFP App. 52a. Moreover, AFP
discovered that the Attorney General had uploaded
approximately 1,778 confidential Schedule Bs to its
public website, hundreds of which had been publicly
available for years. AFP App. 52a; Thomas More App.
123a.
But all of this information would have been
available to the public even had it not been
intentionally disclosed. It turns out that all
confidential information filed with the Registrar of
Charitable Trusts, which encompasses at least
350,000 documents (including Schedule Bs), was
publicly accessible through the Registrar’s website.
One needed only to type the URL into a web browser,
using the URL from known documents on the

16
Registrar’s website, the document number of the
Schedule B sought, and trial and error, in order to
view the confidential donor information. ER866,
ER931-37, 1035-36. Accordingly, the California
Charitable Trusts Section failed to comply with the
IRS’s requirements for electronic storage, which
required the state to set rigorous confidentiality
protocols. ER0691-93.
These circumstances led the district court to find
that there was a “pervasive, recurring pattern of
uncontained Schedule B disclosures—a pattern that
has persisted even during this trial.” AFP App. 52a;
Thomas More App. 62a (“given the history of the
Registry completely violating the “longstanding
confidentiality policy,” the Attorney General’s
assurances that a regulatory codification of the same
exact policy will prevent future inadvertent
disclosures rings hollow.” . . . “trial testimony
supported what should be an obvious fact, the Registry
cannot assure that documents will not be
inadvertently disclosed no matter what steps it
takes.”).
Unfortunately,
these
intentional
and
unintentional
disclosures
and
sloppy
data
management practices are not unique to California or
this litigation. Improper release of sensitive data has
inevitably followed nearly every kind of government
information-collection initiative. A 2015 RAND
Corporation study found that “data breaches and the
unintentional disclosure of personally identifiable
information (PII) stemming from loss or theft of digital
or printed information were reportedly the most
common type of cyber event and, aside from an

17
individual's name and/or address, credit card numbers
and medical information were the most vulnerable
types of information.” Adrejia L.A. Boutté Swafford,
Cyber Risk Insurance: Law Firms Need It, Too, 67 La.
B.J. 326, 327 (2020). And “[m]alicious intentional
attacks far outnumbered those of an accidental basis,
totaling around 60% of all incidents.” Id. (quotations
omitted).
As discussed in detail below, breaches have
occurred at every level of government, from federal to
municipal, and in every setting imaginable. Some
include supposedly involuntary releases such as
hacking or theft by other means. Other times, the
government
releases
private
information
intentionally, through leaks, sharing data with third
party vendors, and in response to public records
requests. As the examples discussed below highlight,
this Court should have no confidence in the Ninth
Circuit’s conclusion that these (or any other) state
officials can or will keep this nonprofit membership
and donor information confidential.
A. Data breaches, accidental disclosures,
and leaks of sensitive information occur
regularly at all levels of government.
Data breaches, accidental disclosures, and leaks
by government officials occur with unfortunate
regularity. Only a few years ago, there was an incident
perfectly illustrating the concerns presented by this
case. In 2013, the National Organization for Marriage
(NOM), whose mission is to “provide educational
outreach and to protect marriage as the union of
husband and wife and the natural family that springs
therefrom as well as the rights of the faith traditions

18
that support and sustain this marriage culture,” sued
the IRS for illegally disclosing the confidential part of
NOM’s Schedule B. Nat’l Org. for Marriage, Inc. v.
United States, 24 F. Supp. 3d 518 (E.D. VA. 2014);
Peter Reilly, National Organization for Marriage
Denied Attorney Fees in IRS Lawsuit, Forbes (Dec. 9,
2015), bit.ly/3qVgF9c. The information had been
illegally provided to an activist, who turned it over to
the Human Rights Campaign, which in turn provided
it to the Huffington Post. See Reilly, supra. The IRS
admitted the wrongdoing and settled the lawsuit. See
id. But that hardly remedied all of the harm resulting
from the disclosure. The strategic leak forced a CEO
to step down from a prominent software company as a
result of public pressure once his contribution to the
group had been made public. See id.
In October 2018, a government computer system
that interacts with HealthCare.gov was hacked,
compromising the sensitive personal data of
approximately 75,000 people. Richard Alonso
Zaldivar, Hackers Breach HealthCare.gov System, Get
Data on 75,000, Associated Press (Oct. 19, 2018),
bit.ly/2m0DsEa. HealthCare.gov collects an array of
information from individuals applying for subsidized
health insurance, including their names, social
security numbers, family information, income, and
citizenship or immigration status. See id.
Concerningly, it appears that officials waited to
inform consumers that their information may have
been compromised until a time that was favorable
from a public relations standpoint. See id. The hack
and data breach forced officials to shut down the
affected portion of the website, and to offer credit
protection to some victims. See id.

19
In late 2018, Indian cybersecurity firm Banbreach
discovered that a server hosting the California
Department of Insurance (CDI) website had seen a
large uptick in generation of reports, indicating a
vulnerability and thus the potential exposure of
personal information. California Department of
Insurance
Vulnerability
Potentially
Exposed
Thousands of SSN and Other Personal Information,
DataBreaches.net (Jan. 5, 2019), bit.ly/2ksfJw0. In
particular, the server generated more than 24,450
reports in 24 hours. See id. These reports included
renewal reports for insurance agents that included the
agents’ name, renewal ID, and Tax Identification
Number (TIN), but because many individuals use
their social security number as their TIN, it is certain
that many people had their names and social security
numbers compromised. See id. Other reports were
potentially exposed, too, including insurance claims
and investigation reports with details such as names,
vehicle registration numbers, and addresses;
statistical reports on monthly frauds; and details of
individuals and the charges they were indicted for, the
fines they paid, and the parties harmed by their
alleged malfeasance. See id. It appears that the CDI
still has not notified any of the potential victims or
made an announcement on a state website about this
serious breach. See id.
In February 2018, an employee at Oregon’s tax
collection agency copied the data of 36,000 people
(including social security numbers) and saved the data
to a personal account. Hillary Borrud, Oregon Tax
Agency Employee Copied Personal Data of 36,000
People,
The
Oregonian
(Mar.
23,
2018),
bit.ly/2kZ7Xdd. The data breach included files that

20
were related to a list of taxpayers who paid their taxes
using checks and turned out to have insufficient funds.
See id. Oregon officials waited a month to disclose the
breach. See id.
In late 2018, the Missouri Department of Health
and Senior Services discovered a data breach
implicating the personal information of over 10,000
people. Announcement from the Missouri Department
of Health and Senior Services, Missouri Dep’t of
Health & Senior Servs. (Oct. 26, 2018),
bit.ly/2m8bXbv.
Apparently,
an
information
technology contractor, who had worked on a
Department information system, improperly retained
the personal information and then allowed it to be
stored in an electronic file that was not passwordprotected. See id. This information included names,
dates of birth, identification numbers issued by State
agencies, and social security numbers. See id.
Earlier that year, it was discovered that an
employee of the Veteran Affairs Medical Center in
Long Beach, California had stolen the health
information of more than 1,000 patients. 3-Year Jail
Term for VA Employee Who Stole Patient Data, HIPPA
Journal (Jun. 18, 2018), bit.ly/2ktIkkz. The breach
was discovered when the perpetrator was stopped by
police officers, who uncovered in his vehicle
prescription medications for which he did not have a
prescription and the Social Security numbers and
other health information pertaining to fourteen
patients. See id. A search of his apartment revealed
hard drives and zip drives containing the private
health information of 1,030 patients. See id.

21
In 2019, two computers that were being used in an
Atlanta-area school board election were stolen from a
precinct. Mark Niesse & Arielle Kass, Check-in
Computers Stolen in Atlanta Hold Statewide Voter
Data, Atlanta News Now (Sep. 17, 2019),
bit.ly/2m0Exfc. These computers contained Georgia’s
statewide voter information—including the “names,
addresses, birth dates and driver’s license information
for every voter in the state.” Id.
In August 2011, confidential documents from the
Louisiana Department of Children and Family
Services, which include personal information, were
found blowing down the street before being collected
and turned over to a local TV station. Confidential
Louisiana Department of Children and Family
Services Documents Found Blowing in the Street;
Office Manager and Area Director Suspended,
DataBreaches.net (Aug. 22, 2011), bit.ly/2NC2YgP. A
large trash bag filled with copies of dozens of social
security cards, bank records, birth certificates, and
other confidential documents was similarly discovered
by a passerby on a downtown Baton Rouge street. See
id. The paperwork appeared to be connected to
applicants for various forms of public assistance such
as food stamps, welfare, and childcare assistance
cases. See id. Two state employees with the
Department of Children and Family Services were
suspended when it was discovered that the documents
were improperly discarded in a trash can accessible to
the public. See id.
In a 2012 incident, the California Department of
Child Support Services lost a staggering amount of
sensitive personal data. GoBankingRates, California

22
Doesn't Know What it Did with 800,000 Child Support
Records, Business Insider (Apr.
3, 2012),
bit.ly/3bHwKsT. As part of a disaster preparedness
exercise, the agency transferred to an IBM facility in
Colorado information necessary to operate California’s
child support system remotely in the event of a
disaster. See id. After the exercise was deemed
successful, the files were to be transported back to the
Department via a transportation contractor. See id.
Before the files reached their destination, however,
four computer storage devices containing, among
other things, social security numbers, names,
addresses, driver’s license numbers, and names of
health insurance providers for about 800,000 people,
went missing. California recommended that those
800,000 people place fraud alerts on their credit cards,
obtain credit reports, and take additional steps to
monitor their private information. See id.
In the Fall of 2018, the Oklahoma Department of
Human Services inadvertently sent letters meant for
people with developmental disabilities to incorrect
addresses. Dale Denwalt, Oklahoma DHS Could Have
Sent Private Medical Info to Wrong Addresses, The
Oklahoman (Oct. 2, 2018), bit.ly/2kWrUS3. The
letters informed patients and their guardians about
changes to their plan of care, but also included
personal information. See id. Apparently, the error
was caused by a computer that labeled envelopes
incorrectly and affected at least 800 people. See id.
These examples—which are surely just the tip of
the iceberg given that they necessarily involve only
detected data leaks or breaches—underscore the
dangers inherent in government data collection and

23
the serious risks of intentional or unintentional
disclosures of sensitive information even when
officials exercise far more care than the California
officials did here. This Court should thus give little, if
any, weight to Respondents’ promises to keep donor
information “confidential,” as there remain serious
risks that this information will ultimately end up in
the public domain.
B. Countless
individuals
have
faced
harassment, threats, and loss of business
opportunities after being “doxed” for
engaging in core political speech.
Not only are there countless instances of sensitive
and confidential information being released each year,
but an increasing number of them result in job losses,
threats, intimidation, and even violence. Especially
when an individual or group advances positions that
are seen as unpopular or controversial, it has become
all too common for those affiliated with the group or
the speaker to face both personal and professional
intimidation and reprisals.
Unfortunately, “[o]ver the past few years,
doxing—publishing private information about people
online, generally with the intent of threatening
them—has become part of the underbelly of politics.”
Rachel Kurzius, Why Do These Activists Publish
People’s Addresses but Fear the Same Treatment?,
Wash. Post (Jan. 9, 2019), wapo.st/3dtWwDi. For
example, in 2019, an activist group, Smash Racism
DC, published Fox News host Tucker Carlson’s home
address on Twitter. More than a dozen activists
showed up at Carlson’s house, harassing his wife and
four children inside and chanting “We know where you

24
sleep at night!” Id. When interviewed, one of the
protestors outside Carlson’s house admitted that
doxing is “designed to make you feel on edge.” Id.
In 2018, then-Senator Orin Hatch and Senators
Mitch McConnell, Lindsay Graham, Mike Lee, and
Rand Paul suffered threats and harassment after a
former aide to Senator Maggie Hassan hacked Senate
computers and released the Senators’ personal
information, including their home addresses and
phone numbers. Josh Gerstein, Ex-Hassan Aide
Sentenced to 4 Years for Doxing Senators, Politico
(June 19, 2019), politi.co/3uilqvN. In what is
considered “the largest data breach in Senate history,”
the former aide “cop[ied] dozens of gigabytes of
sensitive data, and install[ed] sophisticated
keyloggers that captured the work and personal
computer passwords of [Senate] staffers as they logged
in.” Id. The former aide doxed the Senators “solely
because ‘they had different political opinions from’”
him. And the judge who sentenced the aide to prison
specifically noted that “criminal harassment driven by
political motives” is an increasing problem in our “very
vicious” society.” Id.
The “doxing” problem has also spread to college
campuses. In 2019, a student group called the
Autonomous Student Network threated to dox
students at the University of Texas-Austin who joined
conservative student organizations. See Jon Street,
Incoming Texas Freshmen Threatened with Doxing if
They Join Conservative Campus Groups, Campus
Reform (June 21, 2019), bit.ly/3k7NPjy. They
announced to the incoming freshman class on Twitter,
“If you join YCT [Young Conservatives of Texas] or

25
Turning Point USA ... Your name and more could end
up on an article like one of these,” tweeting a website
listing previously posted email addresses and phone
numbers of students who had shown support for a
Supreme Court nominee. Id.
Some individuals also face job losses for
expressing unpopular beliefs or supporting certain
organizations. For example, Facebook fired former
executive Palmer Luckey, known as “a rising star of
Silicon Valley,” after it was revealed that Mr. Luckey
donated money to “an anti-Hillary Clinton group.”
Kirsten Grind & Keach Hagey, Why Did Facebook Fire
a Top Executive? Hint: It Had Something to Do with
Trump,
Wall
St.
J.
(Nov.
11,
2018),
on.wsj.com/2NJChGM. And just this year, Cara
Dumaplin, creator of a popular infant sleep training
program faced harassment and boycotts after activists
revealed that she had donated to President Trump.
Activists also threatened to illegally disperse her sleep
training materials. Rheana Murray, Moms Boycott
Popular Baby Sleep Expert for Donating to Trump,
Today (Jan. 21, 2021), on.today.com/2OM88am.
In sum, it is now easier than ever for malicious
actors to obtain personal information, and there is also
more opportunity than ever to use that information to
engage in harassment, intimidation, or blacklisting.
The risks of disclosures and the serious consequences
of such disclosures must accordingly be considered
prominently in any analysis of the important First
Amendment interests at stake here.

26
C. Nonprofit organizations’ donor and
membership information is also highly
commercially sensitive.
Finally, donor and membership lists are not only
sensitive for advocacy and First Amendment
purposes, but they are also extremely sensitive for
business and competitive purposes. It is wellunderstood in the nonprofit community that the
“cultivation and acquisition of lists” is “[c]rucial to the
marketing success of . . . nonprofit organizations.” Ely
R. Levy, Nonprofit Fundraising and Consumer
Protection: A Donor’s Right to Privacy, 15 Stan. L. &
Pol’y Rev. 519, 528 (2004). “Obtaining, refining, and
exploiting lists has become an economic consideration
relevant to nearly every company[]” in America. Id.
Indeed, donor lists even “usually qualify as
depreciable assets for tax and accounting purposes.”
Id. at 528.
Allowing broad access to confidential donor or
membership lists—as California’s blanket disclosure
policy will inevitably do—gives an organization’s
competitors the opportunity to take advantage of that
hard-earned information for their own business gain,
including by using those lists to solicit another
organization’s donors or members. And there will
surely be third-party data vendors willing to trade in
any information that is disclosed. This is an especially
important consideration given that “[t]rading in
personal information about consumers and donors has
become pattern and practice” and “‘[d]ata-mining’ has
become more valuable, in all respects, than ever.” Id.
at 526-27. Some observers have even contended that
“when one gives a donation to a charity, the name and

27
personal information that comes with the donation is
more valuable than the donation itself.” Id. at 530.
Like countless other nonprofit groups, amici
invest significant time and resources in building
goodwill among their members and donors and
ensuring that those stakeholders remain committed to
each organization’s mission. In addition to burdens on
speech and association protected by the First
Amendment, allowing the Ninth Circuit’s decision to
stand would also diminish the value of nonprofit
organizations’ hard-earned base of donors and
members. The commercial and economic implications
of the decision below are as profound as the
consequences for speech and expression, and all
relevant considerations point in the same direction:
California’s policy and the Ninth Circuit’s decision are
untenable.

28
CONCLUSION
For the foregoing reasons, the Court should
reverse the decision below.
Respectfully submitted,
JEFFREY M. HARRIS
Counsel of Record
WILLIAM S. CONSOVOY
TIFFANY H. BATES
CONSOVOY MCCARTHY PLLC
1600 Wilson Boulevard, Suite 700
Arlington, VA 22209
(703) 243-9423
jeff@consovoymccarthy.com
March 1, 2021

Counsel for Amici Curiae

